               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Controls over Nonprofit Mailing
                Authorization

         Management Advisory Report




                                              March 17, 2014

Report Number MS-MA-14-002
                                                                       March 17, 2014

                                                    Controls over Nonprofit Mailing
                                                                     Authorization

                                                       Report Number MS-MA-14-002



BACKGROUND:
Congress authorized reduced Standard        approving and denying these
Mail rates for certain categories of        applications in compliance with
nonprofit organizations that meet           applicable laws and regulations.
specific eligibility rules. These reduced
rates average about 40 percent less         WHAT THE OIG FOUND:
than comparable Standard Mail rates.        The Postal Service consistently applied
Eligible nonprofit mailers include          its policies and procedures when
religious, educational, and philanthropic   approving and denying nonprofit mailer
organizations. About 350,000 mailers        applications in compliance with
are authorized to use Nonprofit             applicable laws and regulations. Pricing
rates. Nonprofit Standard Mail              and Classification Service Center staff
revenue was about $1.8 billion in fiscal    reviewed applications and supporting
year (FY) 2013. Six percent of the 6,639    documents to ensure each applicant
new nonprofit mail applications the U.S.    provided sufficient evidence that it met
Postal Service received in FY 2013          one of the categories to qualify it for
were denied because of reasons              Nonprofit rate eligibility.
including that an organization failed to
prove their nonprofit status.               We reviewed 170 approved and
                                            198 denied nonprofit mail applications
Organizations apply for nonprofit mailing   from FYs 2010 through 2013 and found
rates by submitting Postal Service Form     applications were approved when they
3624, Application to Mail at Nonprofit      met all of the Postal Service criteria,
Standard Mail Rates, at the Post Office     such as documenting proof of nonprofit
where they plan to enter mail, or           status. Applications were denied when
electronically through the Postal One!      they failed to meet one or more of the
system. Applicants must provide             criteria, such as the requirement to
supporting documentation, which may         respond to requests for additional
include evidence of nonprofit status. The   information. The Pricing and
Postal Service Pricing and Classification   Classification Service Center used the
Service Center is responsible for           same evaluation process to approve
reviewing applications and authorizing      and deny applications.
or denying organizations for nonprofit
Standard Mail rates eligibility.            WHAT THE OIG RECOMMENDED:
                                            Based on the results of our review, we
Our objective was to determine whether      are not making recommendations.
the Postal Service applied its policies
and procedures consistently when            Link to review the entire report
March 17, 2014

MEMORANDUM FOR:            CYNTHIA SANCHEZ-HERNANDEZ
                           VICE PRESIDENT, PRICING




FROM:                      Janet M. Sorensen
                           Deputy Assistant Inspector General
                            for Revenue and Business

SUBJECT:                   Management Advisory Report – Controls over Nonprofit
                           Mailing Authorization
                           (Report Number MS-MA-14-002)

This report presents the results of our review of Controls over Nonprofit Mailing
Authorization (Project Number 13RG038MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joshua M. Bartzen, acting
director, Sales and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Controls Over Nonprofit Mailing Authorization                                                                     MS-MA-14-002



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Nonprofit Application Authorization ................................................................................. 2

Management's Comments............................................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objectives, Scope, and Methodology .......................................................................... 4

   Prior Audit Coverage ................................................................................................... 5
Controls over Nonprofit Mailing Authorization                                                  MS-MA-14-002



Introduction

This report presents the results of our self-initiated review of Controls over Nonprofit
Mailing Authorization (Project Number 13RG038MS000). Our objective was to
determine whether the U.S. Postal Service applied its policies and procedures
consistently when approving and denying nonprofit mailer authorizations in compliance
with applicable laws and regulations. See Appendix A for additional information about
this review.

Nonprofit Standard Mail rates average about 40 percent less than comparable Standard
Mail rates. About 350,000 mailers were authorized to use Nonprofit rates in fiscal year
(FY) 2013. Eligible nonprofit mailers include religious, educational, and philanthropic
organizations.1 See Figure 1. Qualified political committees and voter registration
officials are also eligible without regard to their nonprofit status.

               Figure 1: Distribution of Authorized Organizations by Category




               Source: Postal Service Pricing and Classification Service Center (PCSC) data,
               September 30, 2013.

In determining whether an applicant will be authorized to mail using nonprofit Standard
Mail rates, the Postal Service reviews applications and supporting documents, such as
articles of incorporation or charters, to ensure the applicant is organized and operates
for a qualifying purpose. In addition, where appropriate, the organization must provide
documentation supporting its nonprofit status, such as a tax exemption letter from the



1
    39 U.S.C. § 3626.
                                                          1
Controls over Nonprofit Mailing Authorization                                                          MS-MA-14-002



IRS.2 The PCSC is responsible for reviewing and approving or denying mailer
applications for nonprofit Standard Mail rates. In FY 2013, the PCSC received about
6,639 new nonprofit mail applications and denied about 6 percent of them, for reasons
such as the organization’s failure to prove its nonprofit status.

Conclusion

The Postal Service consistently applied its policies and procedures when approving and
denying nonprofit mailer applications in compliance with applicable laws and
regulations. PCSC staff reviewed applications and supporting documents to ensure
each applicant provided sufficient evidence that it met one of the categories to qualify it
for Nonprofit rates. We reviewed 170 approved and 198 denied nonprofit mail
applications from FYs 2010 through 2013 and found applications were approved
because they met all of the Postal Service criteria, such as documenting proof of
nonprofit status. Applications were denied for failing to meet one or more of the criteria,
such as failing to respond to requests for additional information. The PCSC used the
same process to evaluate approved and denied applications.

Nonprofit Application Authorization

The Postal Service consistently authorized nonprofit mailing rates in compliance with
applicable laws and regulations.3 PCSC staff reviewed applications and supporting
documents to ensure that each applicant provided sufficient evidence that met one of
the qualifying categories and, when appropriate, that established the organization's
nonprofit status.

We sampled and reviewed 368 nonprofit mail rate applications from FYs 2010 through
2013. We judgmentally selected and reviewed 170 approved applications and found
sufficient evidence supporting their eligibility for Nonprofit rates. We randomly selected
and reviewed 198 denied applications. Of these, 47 percent (94) were denied because
the applicants were not qualified according to Postal Service criteria. The PCSC denied
the other 53 percent of applications for reasons including the following, as Figure 2
illustrates:

   The organization could not prove its nonprofit status.
   The organization failed to respond to PCSC requests for additional information.
   The organization had already received authorization.




2
  The criteria for nonprofits does not require nonprofit tax status from the IRS, but proof of that designation can be
submitted to the Postal Service to help document the organization’s nonprofit status. There are circumstances where
an organization might meet IRS nonprofit standards, but not qualify for nonprofit mailing privileges.
3
  39 U.S.C. § 3626 and 39 CFR 111.1.


                                                          2
Controls over Nonprofit Mailing Authorization                                                      MS-MA-14-002




                       Figure 2: Distribution of Nonprofit Applications
                                     Denied by Category




            Source: U.S. Postal Service Office of Inspector General (OIG) Analysis of Postal Service
            PCSC data (FYs 2010 - 2013).

Management's Comments

The Postal Service informally reviewed a discussion draft of this report and had no
comments or concerns.




                                                        3
Controls over Nonprofit Mailing Authorization                                     MS-MA-14-002




                              Appendix A: Additional Information

Background

The U.S. Congress authorized reduced mailing rates4 for nonprofit mailers and
determined the categories of organizations eligible for the rates in 1951. Nonprofit
Standard Mail rates average about 40 percent less than comparable commercial rates.
Nonprofit Standard Mail revenue was about $1.8 billion in FY 2013. In order to qualify
as a nonprofit mailer, an organization must fall under one of the following eight
categories: religious, educational, scientific, philanthropic, agricultural, labor, veterans,
or fraternal. Voting registration officials and national and state political committees may
be qualified to mail using Nonprofit rates without regard to their nonprofit status. There
were about 350,000 mailers authorized to use Nonprofit rates in FY 2013.

An organization applies for nonprofit mailing rates by submitting a Postal Service Form
3624, Application to Mail at Nonprofit Standard Mail Rates, at the Post Office where the
organization plans to enter mail. Alternatively, organizations may apply for nonprofit
mailing rates electronically through the Postal One! system. In either case, applicants
must provide supporting documentation, which may include formative papers such as
articles of incorporation, evidence of nonprofit status, and documents concerning
operations. The PCSC is responsible for approving or denying applications for nonprofit
mail rates, regardless of submission method. When mailers submit nonprofit mailings to
the Postal Service, field unit staff use PostalOne! to verify that they are authorized to
use Nonprofit rates and then records mailer activity to track volumes.

Objectives, Scope, and Methodology

Our objective was to determine whether the Postal Service applied its policies and
procedures consistently when approving and denying nonprofit mailer applications in
compliance with applicable laws and regulations. To accomplish our objective, we
reviewed laws, regulations, policies, and procedures concerning the Postal Service’s
processing of nonprofit mail rate applications. We also interviewed PCSC personnel to
understand the procedures and controls for determining mailer eligibility for Nonprofit
rate authorization. We sampled and reviewed 368 nonprofit mail rate applications from
FYs 2010 through 2013. Of these, we randomly selected 198 applications denied by the
PCSC and evaluated them to determine whether applicable policies and procedures
were consistently followed. We also judgmentally selected 170 applications approved by
the PCSC to evaluate processing consistency with the denied sample.

We conducted this review from September 2013 through March 2014 in accordance
with the Council of the Inspectors General on Integrity and Efficiency, Quality Standards
for Inspection and Evaluation. We discussed our observations and conclusions with
management on March 12, 2014.


4
    39 U.S.C. § 3626.


                                                4
Controls over Nonprofit Mailing Authorization                                MS-MA-14-002



We assessed the reliability of PostalOne! data by testing samples of mailer applications
for nonprofit mail authorization and reviewing related controls. We determined that the
data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not conduct any audits related to the objective in the past 3 years.




                                                5
